No. 20-1247
IN THE

6uprente Court of the Eniteb 6tate5
GERALD DIX,
Petitioner,
v.
EDELMAN FINANCIAL SERVICES, LLC, ET AL.,

RECEIVED

Respondents.

APR 1 4 2021
CERTIFICATE OF SERVICE

OFFICE OF THE CLERK
SUPREME COURT U.S.

As required by Supreme Court Rule 29.5, I certify that the Supplemental Brief
of Petitioner was served via electronic mail and the United States Postal Service on
all parties required.
I declare under penalty of perjury that the foregoing is true and correct.
SUBSCRIBED AND SWORN TO BEFORE ME this 12th day of April, 202

Gerald Dix
State of Illinois, County of Cook, ss. I, the undersigned, a Notary Public in and for the
said County, in the State aforesaid, DO HEREBY CERTIFY that Gerald Dix
personally known to me to be the same person whose name is subscribed to the
foregoing instrument, appeared before me this day in person, and acknowledged that
he signed the said instrument as his free and voluntary act as Witness for the uses
and purposes therein set forth
Given under my hand and official seal, this

day of

AP(; t

Commission expires:
Notary Public
Official Seal
Daniel Duffing
Notary Public State of Illinois
My Commission Expires 06/22/2022

°Pc

, 2021.

List of Parties served:
Ilana H. Eisenstein
Ben C. Fabens-Lassen
DLA PIPER LLP (US)
1650 Market St., Ste. 5000
Philadelphia, PA 19103

Daniel S. Harawa
Washington University School of Law
One Brookings Drive, Box 1120
St. Louis, MO 63130
dharawa@wustl.edu

ilana.eisenstein@dlapiper.com
ben.fabens-lassen@dlapiper.com
Lori A. Vanderlaan
Allie M. Burnet
Best, Vanderlaan & Harrington
25 E. Washington St., Ste. 800
Chicago, Illinois 60602

Thomas F. Asch
Law Offices of Thomas F. Asch
7516 N. Eastlake
Chicago, IL 60626
thomasasch@earthlink.net

lvanderlaan@bestfirm.com
aburnet@bestfirm.com

James H. Knippen, II
WALSH, KNIPPEN & CETINA
2150 Manchester Road, Ste. 200
Wheaton, IL 60187-2476
jim@wkc-lawyers.com
Kevin M. O'Hagan
Paige Canepari
O'HAGAN MEYER LLC
One East Wacker Drive Ste. 3400
Chicago Illinois 60601
kohagan@ohaganmeyer.com
pcanepari@ohaganmeyer.com

2

